Supreme Court, U.S.
FILED

WAIVER

FEB 0 it 2021
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-919

Richard Spinnenweber, et al.,

Dan Williams

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the .United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bad nlember.
Signature
Date.

02/04/2021

(Type or print) Name

Matthew Joseph Carson
0 Mr. 0 Ms.

Firm

0 Miss

Sniffen & Spellman, P.A.

Address

123 North Monroe Street

City & State
Phone

0 Mrs.

Tallahassee, FL

850-205-1996

Zip
Email

32301

mcarson@sniffenlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF. THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

mppvED

CC: Mr. Gary Lee Printy, 1804 Miccosukee Commons Drive, Suite 200, Tal ah

FEB 1 6 2021
eFFICE OF THE CLERK
SUPREME COURT, U.S.

